Memorandum from the Office of the Inspector General



August 10, 2010

Kimberly S. Greene, WT 7B-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2009-12510 – DISTRIBUTOR
REVIEW OF ELECTRIC POWER BOARD OF THE CITY OF SCOTTSBORO



Attached is the subject final report for your review and action. We received management
decisions on all recommendations except 2, 3, 5, 8, 9, and 18. You are responsible for
working with Scottsboro Electric Power Board to determine management’s decision in
response to these recommendations. Please advise us of your management decision
within 60 days from the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Andrea L.
Williams, Senior Auditor, at (865) 633-7375 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430. We appreciate the courtesy
and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ALW:HAC
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Joyce L. Shaffer, WT 9B-K
      Stephen B. Summers, WT 4B-K
      John M. Thomas III, MR 3A-C
      John G. Trawick, WT 3D-K
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12510
        
 


                                 Audit Report
 
Office
      of the Inspector General                             

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                           

 

 

 

 

 

 
DISTRIBUTOR REVIEW
 

OF ELECTRIC POWER
BOARD OF THE CITY OF
SCOTTSBORO
 




 

 
 
 

 
Audit Team                                 Audit 2009-12510
Andrea L. Williams                          August 10, 2010
Stephanie L. Simmons

 

                  
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS .................................................................................................. 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 6

   CONTRACT COMPLIANCE ISSUES ............................................................... 9

   DISTRIBUTOR INTERNAL CONTROL ISSUES ............................................ 10

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 13

RECOMMENDATIONS ................................................................................ 14


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED JUNE 15, 2010, FROM JAMES SANDLIN AND JOHN
   POWELL

C. MEMORANDUM DATED JULY 8, 2010, FROM KIMBERLY S. GREENE TO
   ROBERT E. MARTIN




Audit 2009-12510
                           Audit 2009-12510 – Electric Power Board of the
                                         City of Scottsboro
                                              EXECUTIVE SUMMARY

     Background

         In 2002, Tennessee Valley Authority’s (TVA) Board of Directors approved and made
         available to distributors six wholesale power contract flexibility options. One of these
         available options terminated TVA’s contract authority and obligations regarding retail
         rates. Four distributors, Scottsboro, Knoxville Utilities Board, Memphis Light, Gas and
         Water, and Meriwether Lewis Electric Cooperative, were granted this authority. As a
         result, these distributors have the authority to determine the retail rates charged to its
         customers with no or limited oversight by TVA. The TVA Board, however, did not
         relinquish the responsibility to ensure the power purchased is sold and distributed to the
         ultimate consumer without discrimination among consumers of the same class, and no
         discriminatory rate, rebate, or other special concession will be made or given to any
         consumer. According to agreements with Scottsboro, Knoxville, and Memphis, the
         options were provided (1) because the electric utility industry was undergoing changes
         and restructuring and (2) to prepare for the prospect of legislation further altering the
         industry and the relationship between TVA and its distributors.1 The decision previously
         made by the TVA Board of Directors to allow the four distributors to regulate their own
         retail rates significantly increases the reputational risk to TVA surrounding their role as a
         regulator. The Office of the Inspector General (OIG) will address this issue separately
         after additional reviews are undertaken.

         The OIG performed a review of the Electric Power Board of the City of Scottsboro,
         Alabama, which is a distributor for TVA power based in Scottsboro, Alabama. Annual
         revenues from electric sales were approximately $25 million in fiscal year (FY) 2008.
         Scottsboro also operates a telecommunications department that offers cable, internet,
         and telephone services. The objective of the review was to determine compliance with
         key provisions of the power contract between TVA and Scottsboro.

     What the OIG Found

         Our review of Scottsboro found improvements were needed in the areas of:

            Customer Classification, Metering, and Other Potential Power Discrimination
             Issues – We identified nine customer accounts not classified correctly and two
             metering issues that could impact (1) the proper reporting of electric sales and/or
             (2) nondiscrimination in providing power to customers. We also identified two other
             potential power discrimination issues related to Scottsboro (1) providing a
             specialized industrial rate to only one customer and (2) not passing wholesale Fuel
             Cost Adjustments and wholesale rate increases/decreases to all customers. We
             were unable to estimate the monetary effect of all the classification and metering



1
    The agreement with Meriwether Lewis in 2004 did not specifically state why the option was provided to them.
                                                                                                              Page i
                 Audit 2009-12510 – Electric Power Board of the
                               City of Scottsboro
                                   EXECUTIVE SUMMARY

      issues because in some instances information was not available; however, for the
      one instance where information was available, we estimated Scottsboro owed TVA
      approximately $88,000 in wholesale demand charges.
     Use of Revenues – We found Scottsboro used electric system funds to pay for
      expenses of the telecommunications department without loan documents in place
      showing principal and interest payments and recourse protections. As of June 2008
      and June 2009, the telecommunications department owed the electric department
      approximately $544,000 and $560,000, respectively.

      In addition, we found Scottsboro had enough cash on hand to cover planned capital
      projects and provide a cash reserve of about 2 percent; however, this is less than
      TVA’s established guidelines for adequate cash reserves of 5 to 8 percent. As of
      June 30, 2008, Scottsboro reported about $2.36 million in cash and planned capital
      expenditures of about $1.82 million, which left cash reserves of about $544,000.
     Contract Compliance – We identified two areas where Scottsboro was not meeting
      power contract requirements with TVA. Specifically, we found (1) co-mingling of
      electric department funds and general ledger accounts with the telecommunications
      department and (2) costs not being allocated according to the most recent joint cost
      study.
     Distributor Internal Controls – We identified four areas where Scottsboro could
      strengthen internal controls. Specifically, we found improvements could be made in
      the (1) approval of retail rates, (2) documentation of retail rate schedules, (3) billing
      practices, and (4) customer contracts.

  TVA Oversight Opportunities – We identified three opportunities to enhance TVA’s
  oversight of the distributors, two of which (prudent expenditure guidance and
  performance of a current joint cost study) were also identified in previous distributor
  reports. As mentioned earlier, Scottsboro is one of four distributors to which TVA
  granted retail rate setting authority. For the four distributors with this authority, we found
  TVA has not developed guidance regarding necessary controls to ensure retail rates are
  properly designed, approved, and implemented to prevent discrimination or the
  perception of discrimination in providing power to customers.

What the OIG Recommends

  We recommend the Group President, Strategy and External Relations (S&ER), take
  action to ensure Scottsboro (1) remediates classification, metering, and other potential
  power discrimination issues and institutes controls to prevent the issues from recurring;
  (2) executes loan documents for internal loans between the electric department and
  telecommunications department; (3) complies with contract provisions; and (4) improves
  internal controls.


                                                                                          Page ii
                 Audit 2009-12510 – Electric Power Board of the
                               City of Scottsboro
                                  EXECUTIVE SUMMARY

  In addition, the Group President, S&ER, should (1) develop and provide guidance on
  controls over designing, approving, and implementing retail rates for distributors who
  have authority to set their own retail rates and (2) review and recover amounts due to
  TVA for one customer without a demand meter.

Management’s Comments

  Scottsboro agreed with six recommendations, disagreed with seven recommendations,
  and did not respond to the remaining six recommendations. TVA agreed with
  10 recommendations and did not address 11 recommendations related to the resale
  rates. TVA stated it could not implement the recommendations because TVA does not
  regulate Scottsboro’s resale rates. In other words, since TVA agreed to give up the
  wholesale power contract provisions that provided TVA the means by which to mandate
  requirements related to Scottsboro’s resale rates, TVA currently has no mechanism by
  which to mandate requirements related to Scottsboro’s resale rates except with respect
  to taking appropriate action to enforce the contract provisions that prohibit discrimination
  in the sale and distribution of power. TVA also indicated, at TVA’s request, Scottsboro
  has agreed to evaluate reinstatement of the retail rate regulation provisions in the power
  contract. See Appendices B and C for complete responses.

Auditor’s Response

  In regard to the six recommendations Scottsboro agreed to implement, we concur with
  its planned actions. For the remaining recommendations in which Scottsboro disagreed
  or did not respond to, the OIG maintains that implementation of our recommendations
  would be beneficial to Scottsboro. Regarding the ten recommendations TVA agreed to
  implement, we concur with its planned actions. However, in regard to TVA’s contention
  that because it does not regulate Scottsboro’s resale rates, it cannot implement our
  recommendation regarding providing guidance on controls over designing, approving,
  and implementing retail rates for distributors who have authority to set their own retail
  rates, the OIG maintains that TVA does have responsibility to provide such guidance as
  part of its responsibility to ensure nondiscrimination. Also, the OIG concurs with TVA's
  and Scottsboro’s planned actions to evaluate the reinstatement of the retail rate
  regulation provisions in the power contract.




                                                                                        Page iii
Office of the Inspector General                                                                  Audit Report


BACKGROUND
The Electric Power Board of the City of Scottsboro, Alabama, is a distributor for
TVA power based in Scottsboro, Alabama, with revenues from electric sales of
approximately $25 million in FY 2008. TVA relies on distributors to self-report
customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, manufacturing,
and lighting. Within these classes are various rate classifications based on the
customer type and usage. Table 1 shows the customer mix for Scottsboro as of
June 2008.

                        Scottsboro’s Customer Mix as of June 2008
                                                Number of                                     Kilowatt
       Customer Classification                                          Revenue
                                                Customers                                    Hours Sold
    Residential                                            6,800            $8,662,276         105,434,709
    General Power – 50 Kilowatt (kW)
                                                           1,263             2,346,309          24,611,916
    and Under (Commercial)
    General Power – Over 50 kW
                                                             223            13,383,709         184,309,307
    (Commercial or Manufacturing)
    Street and Athletic                                       25               289,742           2,592,792
    Outdoor Lighting2                                          0               282,059           2,400,452
      Total                                                8,311          $24,964,095        319,349,176
                                                                                                    Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Scottsboro, like many other distributors, outsources its billing
and invoice processing to a third-party processor, Central Service Association
(CSA). Scottsboro uses CSA systems to establish and set up new customers,
input customer meter information, perform the monthly billing process, and
execute customer account maintenance. Additionally, CSA provides Scottsboro
with management reporting capabilities (e.g., exception reports). All other
accounting and finance responsibilities are handled by Scottsboro, which has a
Board of Directors providing oversight and a manager and accountant managing
the daily activities. Scottsboro also operates a telecommunications business that
includes cable, telephone, and internet services.

Granting of Authority to Set Retail Rates
In 2002, TVA’s Board approved and made available to distributors six wholesale
power contract flexibility options. One of these available options terminated
TVA’s contract authority and obligations regarding retail rates. In 2004,
Scottsboro and TVA agreed to a wholesale power contract amendment that
granted Scottsboro authority to set its own retail rates. Three other distributors,
Knoxville Utilities Board, Memphis Light, Gas and Water, and Meriwether Lewis

2
     This customer count represents those customers who only have Outdoor Lighting accounts with
     Scottsboro. Another 923 customers at June 30, 2008, had Outdoor Lighting accounts with Scottsboro as
     well as accounts for other services. The kilowatt hours sold include all kilowatt hours for all accounts.
Audit 2009-12510                                                                                       Page 1
Office of the Inspector General                                           Audit Report


Electric Cooperative, have also been granted this authority by TVA. As a result,
these four distributors have the authority to determine the retail rates charged to
its customers with no or limited oversight by TVA. The TVA Board, however, did
not relinquish the responsibility to ensure the power purchased is sold and
distributed to the ultimate consumer without discrimination among consumers of
the same class, and no discriminatory rate, rebate, or other special concession
will be made or given to any consumer. According to agreements with
Scottsboro, Knoxville, and Memphis, the options were provided (1) because the
electric utility industry was undergoing changes and restructuring and (2) to
prepare for the prospect of legislation further altering the industry and the
relationship between TVA and its distributors. The agreement with Meriwether
Lewis in 2004 did not specifically state why the option was provided to them.

FINDINGS
Our review of Scottsboro found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and/or
(2) nondiscrimination in providing power to customers. We also identified two
additional potential power discrimination issues related to Scottsboro
(1) providing a specialized industrial rate to only one customer and (2) not
passing wholesale Fuel Cost Adjustments (FCA) and wholesale rate
increases/decreases to all customers.

In addition, we found Scottsboro (1) had enough cash on hand to cover planned
capital projects and provide a cash reserve of about 2 percent, which is less than
TVA’s established guidelines for adequate cash reserves of 5 to 8 percent and
(2) used electric system funds to pay for expenses of the telecommunications
department without loan documents in place showing principal and interest
payments and recourse protections.

We also found improvements were needed to comply with contract provisions in
the areas of (1) co-mingling of funds and (2) allocation of costs. In addition, we
identified four areas where Scottsboro’s internal controls could be strengthened
including (1) approval of retail rates, (2) documentation of retail rate schedules,
(3) billing practices, and (4) customer contracts. Finally, as we explain herein,
we found certain opportunities to enhance TVA’s oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO CUSTOMERS

As discussed below, we identified customer classification and metering issues
that could impact the proper reporting of electric sales. In addition to the
classification and metering issues, we identified two other issues that could also




Audit 2009-12510                                                               Page 2
Office of the Inspector General                                                                      Audit Report


impact the ability to ensure nondiscrimination in providing power to customers.3
We were unable to estimate the monetary effect of all the issues because in
some instances information was not available; however, for the instance where
we could estimate the monetary effect, we estimate Scottsboro owes TVA
approximately $88,000 for wholesale demand charges for our two-year audit
period (July 2006 through June 2008). Additionally, correction of classification,
metering, and other potential discrimination issues in providing power to
customers are necessary to ensure all customers are placed in the correct rate
classification and charged the same rate as other customers with similar
circumstances.

Customer Classification Issues
We found nine customer accounts that were not classified properly. Of the nine
accounts, two were commercial customer accounts classified within the General
Power Rate – Schedule GSA. The GSA schedule is divided into three parts—
Part 1, Part 2, and Part 3—based on electric usage and demand,4 and these
customer accounts were incorrectly assigned within the GSA schedule. The
remaining seven customer accounts were classified as residential, although they
should have been classified under the GSA schedule. The monetary impact of
the classification issues below would not be material to Scottsboro or TVA.
Specifically, we found:

    Two customer accounts were classified as GSA Part 15 instead of GSA
     Part 2. According to the GSA schedule, a customer should be classified as
     GSA Part 2 if (1) usage is over 15,000 kilowatt hours (kWh), (2) metered

3
    Section 2 Resale Rates subsection (a) of the power contract between TVA and Scottsboro, dated
    February 1, 2004, states that “power purchased hereunder shall be sold and distributed to the ultimate
    consumer without discrimination among consumers of the same class and that no discriminatory rate,
    rebate, or other special concession will be made or given to any consumer.”
4
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs
    for more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time
    known as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
5
    Under the General Power Rate – Schedule GSA adopted by Scottsboro, customers are classified based
    on the following requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its
        highest billing demand during the latest 12-month period is greater than 50 kW but not more than
        1,000 kW or (b) the customer’s billing demand is less than 50 kW and its energy takings for any
        month during such period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2009-12510                                                                                           Page 3
Office of the Inspector General                                                                  Audit Report


     demand exceeds 50 kW, or (3) contract demand is greater than 50 kW.
     When a customer is moved to GSA Part 2, they must remain at that
     classification for 12 months after the usage meets the Part 2 criteria. These
     customers had metered demand of over 50.01 kW during the audit period;
     therefore, the customer should have been classified as a GSA Part 2 for the
     next 12 months. Based on information provided by billing agency personnel,
     the CSA Orbit system used by Scottsboro does not automatically change a
     customer from GSA Part 1 to GSA Part 2 based on metered demand until
     after demand exceeds 50.499 kW rather than the 50 kW as stated under
     Part 2 of the GSA schedule. One of these customer accounts was
     automatically upgraded to GSA Part 2 by the billing system the next month
     when the demand reached 51.2 kW. The other customer account did not
     have demand that exceeded 50.499 kW for the remainder of the audit period;
     therefore, the customer account was not automatically upgraded to GSA
     Part 2 by the billing system. Scottsboro personnel were aware the threshold
     for metered demand in the CSA system was 50.499 kW rather than 50.01
     kW; however, Scottsboro did not change the customer account to GSA Part 2
     at the time the demand exceeded 50.01 kW. In response to previous audits,
     CSA modified the billing system to address this issue.
    Seven customer accounts were classified as residential customers instead of
     GSA customers. Specifically, we noted:
      One customer account was a flashing traffic light for the City of Scottsboro
        that should be classified as commercial.
      Four customer accounts were commercial businesses.
      Two customer accounts with separately metered structures, a workshop
        and a shed at different residences, should have been classified as
        commercial.  
     Scottsboro personnel reclassified the seven customers from residential to
     commercial (GSA schedule) during our audit.

Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted the following two issues related to metering of customers at Scottsboro.
We were unable to estimate the monetary effect because in some instances
meters were not in place that would provide information to make the estimates.
Specifically, we found:

    Three customers classified as GSA Part 2 had energy usage in excess of
     25,000 kWh but were not measured for demand.6 Under Part 2 of the
     GSA schedule and the Wholesale Power Rate – Schedule WS with TVA,
     there would be no effect on the revenues for TVA or the distributor unless the
     customer demand exceeded 50 kW. Without demand meters in place or

6
    On February 9, 2010, in response to a finding in a previous report, TVA issued guidance to distributors in
    Alabama on how to evaluate whether a demand meter is needed when a customer’s usage reaches
    25,000 kWh.
Audit 2009-12510                                                                                       Page 4
Office of the Inspector General                                                                  Audit Report


     evidence indicating other circumstances exist that would prevent a customer
     from exceeding demand of 50 kW, we could not determine if two of these
     customers would have exceeded 50 kW.  
     The remaining customer previously had a demand meter under Part 2 of the
     GSA schedule until the customer requested a specialized industrial Stone,
     Clay, and Glass (SC&G) time-of-use retail rate that does not include a
     demand component. Even though Scottsboro was granted authority to
     determine the components of its retail rates (i.e., usage and demand
     thresholds, amounts to charge, etc.) in 2004, the revised wholesale power
     contract did not change the Schedule 1 reporting requirements (i.e., usage
     and demand for the various rate classifications). Therefore, demand must be
     reported on the monthly Schedule 1 for all customers meeting the Wholesale
     schedule GSA Part 2 criteria. Using historic demand data for the customer,
     we estimated approximately $88,000 in demand charges were not reported
     on the Schedule 1 for the audit period. This customer has not been metered
     for demand since 2005.
    According to Scottsboro personnel, not all customers have demand meters
     that measure kilovolt-ampere (kVA).7 Also, according to Scottsboro
     personnel, Scottsboro adopted the TVA retail rate schedules, including the
     GSA schedule. The GSA schedule requires customers whose power factor
     falls below 85 percent have a demand meter that measures kVA to properly
     determine demand charges on the customer bill. While the lack of a kVA
     measurement would not impact wholesale information reported on
     Schedule 1,8 this could impact demand charges billed to the distributor’s
     customers and therefore electric sales stated on the distributor’s financial
     reports to TVA. However, without a kVA measurement to compare to
     metered demand, we could not estimate the monetary impact of this issue. 

Other Potential Power Discrimination Issues
In addition to the customer classification and metering issues, our review noted
two additional issues that may impact Scottsboro’s ability to ensure
nondiscrimination in providing power to customers. Specifically, we found:

    A specialized rate was provided for one customer but not for any other
     customers or industries in the Scottsboro system. A specialized time-of-use
     retail rate schedule was created for the SC&G industry at the request of a
     local quarry customer. This customer is currently the only customer provided



7
    A volt-ampere is the measure of apparent power, or the total power, in an AC circuit. The practical unit
    of apparent power is the kVA. Real power, measured in watts, is the actual power used by the load. The
    power factor is obtained by dividing the real power by the apparent power.
    For billing purposes, a customer’s monthly billed demand is determined to be “the higher of the highest
    average during any 30-consecutive-minute period of the month of (a) the load metered in kW or
    (b) 85 percent of the load in kVA plus an additional 10 percent for that part of the load over 5,000 kVA.”
8
    Monthly metered demand readings in kilowatts are included on Schedule 1. KVA is used only to
    determine the monthly demand charge billed to the customer.
Audit 2009-12510                                                                                      Page 5
Office of the Inspector General                                                                     Audit Report


     electric service under the SC&G schedule. According to Scottsboro
     personnel, the SC&G schedule was modeled after Alabama Power’s SC&G
     schedule. The customer for whom the SC&G rate was provided would not
     qualify for the Alabama Power SC&G rate since the customer does not meet
     the Standard Industry Classification requirements of that rate schedule.
     Additionally, we found one additional Scottsboro customer that could receive
     the Alabama Power SC&G rate.
     Alabama Power currently offers four other specialized industrial time-of-use
     rates in addition to the SC&G schedule. These rate schedules include Textile
     and Apparel, Poultry, Fabricated Metals, and Primary Metals. Scottsboro
     currently has 12 customers who would qualify for service under the additional
     Alabama Power specialized industrial rate schedules. We also found
     Scottsboro did not include the SC&G schedule in the listing of available retail
     rate classifications on their Web site. Without the posting of this schedule, a
     similarly situated customer may not know the rate is available.
    The quarterly FCA charged by TVA beginning in January 2007 and the
     wholesale rate increases and decreases were being passed to all customer
     classifications except the one customer in the SC&G schedule. According to
     the Section 2 Resale Rates subsection (a) of the power contract between
     TVA and Scottsboro, electric power “shall be sold and distributed to the
     ultimate consumer without discrimination among consumers of the same
     class, and that no discriminatory rate, rebate, or other special concession will
     be made or given to any consumer.” The Scottsboro Board approvals for the
     FCA and the wholesale rate increases and decreases did not indicate any
     rate classification was excluded from either type of rate change.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed on the next page, we noted
Scottsboro (1) had enough cash on hand to cover planned capital projects and
provide a cash reserve of about 2 percent, which is below TVA’s established
guidelines for adequate cash reserves of 5 to 8 percent,9 and (2) used electric
system funds to pay for expenses of the telecommunications department without
loan documents in place showing principal and interest payments and recourse
protections.




9
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents_______________________
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2009-12510                                                                                          Page 6
Office of the Inspector General                                                    Audit Report


Cash Reserves Were About 2 Percent
We found Scottsboro had enough cash on hand to cover planned capital projects
and provide a cash reserve. As of June 30, 2008, Scottsboro reported about
$2.4 million in its cash and cash equivalent accounts, and the cash reserve after
planned capital projects was about 2 percent, which is below TVA’s established
guidelines for adequate cash reserves of 5 to 8 percent. Table 2 shows
information about plans for major capital expenditures obtained from Scottsboro’s
Finance Manager.

                       Scottsboro’s Planned Capital Expenditures

                       Capital Expenditure Plans                            Project Cost
 Transmission System                                                             $1,515,118
 Security/Street Lights                                                             115,569
 Generation Facility                                                                166,109
 Miscellaneous Equipment                                                             21,521
  Total Planned Capital Expenditures                                             $1,818,317
                                                                                     Table 2

When compared to Scottsboro’s capital expenditure plans for the foreseeable
future, the balance in Scottsboro’s cash accounts was enough to pay for these
items and leave about $544,000 as a reserve, as shown in Table 3. Table 3 also
shows Scottsboro’s cash ratio percentage was about 10 percent before
accounting for planned capital expenditures and about 2 percent after accounting
for them.

  Scottsboro’s Cash Accounts Compared to Planned Capital Expenditures
                                  Cash and Cash      Planned Capital   Reserve After Planned
                                   Equivalents        Expenditures      Capital Expenditures
 FY 2008                                $2,362,098        $1,818,317                 $543,781
 Cash Ratio Percentage                     10.06%                                       2.32%
                                                                                      Table 3

In 2004, TVA ceded retail rate setting authority to Scottsboro. According to
Scottsboro records, over the past five years, Scottsboro had one minimal
increase in 2005 and two rate decreases in 2006 and 2008. Table 4 shows the
rate increases/decreases received by Scottsboro and the cash position and cash
ratio at June 30 prior to the effective date of the rate change.




Audit 2009-12510                                                                        Page 7
Office of the Inspector General                                                               Audit Report


     Scottsboro’s Rate Increases/Decreases, Cash Position, and Cash Ratio
                                                                      Rate Increase/Decrease10
 Cash on Hand Equivalent             Cash and Cash
   to an 8% Cash Ratio                                      Change in
                                      Equivalents11                   Percent          Effective Date
                                                            Revenue
                                     and Cash Ratio
                                        $2,153,410
           $1,617,084                                           $66         0%           10/1/2005
                                        (CR = 10.65%)
                                        $1,073,704
           $1,865,473                                        $(49,059)    (1.14)%        10/1/2006
                                        (CR = 4.60%)
                                        $1,266,328
           $1,808,326                   (CR = 5.60%)        $(301,096) (6.27)%           04/1/2008
                                                                                                  Table 4

Additionally, we noted Scottsboro’s FY 2009 cash ratio falls to approximately
negative 2 percent after taking into consideration planned FY 2010 capital
projects. Scottsboro’s cash reserves are lower than TVA’s guidelines for
adequate cash reserves of 5 to 8 percent. Distributors usually have cash
reserves as a hedge against the risks of unforeseen costs from an aging
infrastructure (e.g., equipment failure), potential loss of revenue from the
economic impact on commercial and industrial customers, and unpredictable
weather. Scottsboro’s management stated that cash reserves were deliberately
kept low because their operating philosophy was to set retail rates as low as
possible to allow more funds to be invested in the local economy.

Electric Funds Used for Telecommunications Business
We found Scottsboro used electric system funds to pay for expenses of the
telecommunications department without loan documents in place showing
principal and interest payments and recourse protections. Without executed loan
documents, the electric department has no legal recourse to recoup the funds
expended to establish and fund the telecommunications department. In 1999,
the telecommunications department issued $4 million in bonds to finance the
initial expenses of establishing the telecommunications department. Additionally,
the electric department has paid for all telecommunications expenses that
exceeded the revenues collected in a given year. The expenses covered by the
electric department on behalf of the telecommunications department totaled
approximately $544,000 as of June 2008 and approximately $560,000 as of
June 2009.

According to a 1998 TVA agreement with Scottsboro relating to providing
telecommunication services, any electric system revenues used to finance the
telecommunications department after the first three years would be repaid with
interest accrued at the same rate as the telecommunications bonds. We found
no interest was being charged to the telecommunications department for use of
10
     These are the rate increases/decreases enacted by the distributor. These increases/decreases do not
     include any rate increases or decreases made by TVA, including FCAs, which were passed through by
     the distributor to the customer.
11
     The cash and cash equivalents and cash ratio were computed based on information from Scottsboro’s
     annual report as of June 30 prior to the effective date of the rate increase.
Audit 2009-12510                                                                                   Page 8
Office of the Inspector General                                           Audit Report


the electric system funds. In addition, Scottsboro was unable to provide any loan
documents supporting the amounts provided to the telecommunications
department by the electric department that indicated interest rates, payment
terms, electric department recourse, etc.

CONTRACT COMPLIANCE ISSUES
We noted two areas where Scottsboro was not meeting the requirements of the
power contract with TVA. Specifically, we found the (1) electric department and
telecommunications department funds and general ledger accounts were
co-mingled, and (2) costs were not allocated between departments in
accordance with the most current joint cost study. Below is further discussion on
these items.

Co-Mingling of Funds
We found general ledger cash accounts contained cash collections for
telecommunications services in addition to cash collections for electric services.
As a result, cash collected for providing telecommunications services could be in
the cash balances reported as electric department assets. We also found
accounts receivable and accounts payable included customer receivables and
amounts due to vendors related to telecommunication services. Section 1,
Purpose of Contract, of the power contract between TVA and Scottsboro stated,
“electric system funds and accounts shall not be mingled with other funds or
accounts of Municipality.” According to TVA personnel, TVA has allowed the
practice of the distributor using the same bank account(s) for all business
activities; however, TVA personnel stated electric services and nonelectric
services should be recorded in separate general ledgers.

Allocation of Joint Costs
We found allocations between the electric department and telecommunications
department were not made in accordance with the most recent joint cost study.
Under the power contract, the distributor is allowed to “use property and
personnel jointly for the electric system and other operations, subject to
agreement between Municipality and TVA as to appropriate allocations.” The
last cost study with TVA was conducted in May 2000. This study did not include
operation and maintenance expenses as part of the amount calculated for rent
attributable to the telecommunications department. Rather, the cost study
directed that operation and maintenance expenses be allocated between the
electric department and telecommunications department on a case-by-case basis
according to the allocation percentages set forth in the cost study.

According to Scottsboro personnel, it was assumed operation and maintenance
costs, other than payroll, advertising, and professional services, were included in
the rent charged to the telecommunications department; therefore, Scottsboro
was not allocating these expenses between the departments as the expense



Audit 2009-12510                                                               Page 9
Office of the Inspector General                                                  Audit Report


occurred. Finally, we found the electric department was covering the entire cost
of some larger, heavy-equipment-related12 expenses used by both the electric
department and telecommunications department since Scottsboro determined
the electric department would be using the purchased item the majority of the
time.

DISTRIBUTOR INTERNAL CONTROL ISSUES
We identified four areas where Scottsboro’s internal controls could be
strengthened. Specifically, we found improvements could be made with respect
to (1) approval of retail rates, (2) documentation of retail rate schedules,
(3) billing practices, and (4) customer contracts.

Approval of Retail Rate Increases
We found Scottsboro implemented retail rate increases without approval by the
Scottsboro Board. Specifically, (1) an adjustment applied to the FCA passed
from TVA to one or more of the end-use customers by Scottsboro increased the
total FCA amount above the Board-approved amount, and (2) retail rate
increases for the SC&G schedule were implemented without Board approval.

Documentation and Approval of Retail Rate Schedules
We found retail rate schedules for retail customer classifications were not
formally documented and approved by the Scottsboro Board. Retail rate
schedules typically include which customers the rate classification is available to,
the energy and demand thresholds, retail rates and charges, how demand is
determined, minimum bill requirements, and any other special charges that may
apply (facilities charge, reactive power, etc.). According to Scottsboro personnel,
it was assumed the retail rate schedules provided by TVA prior to 2004 and the
terms of service contained therein were still being used. However, Scottsboro
could not provide documentation of approval of these retail rate schedules by the
Scottsboro Board. Additionally, there was no documentation of (1) the retail rate
schedule for the SC&G classification created by Scottsboro or (2) approval of the
SC&G schedule by the Scottsboro Board.

Billing Practices
We found Scottsboro’s billing practices could be improved to ensure customer
bills were accurate. Scottsboro (1) incorrectly calculated and billed demand for
one customer, (2) incorrectly calculated and billed reactive power for one
customer, and (3) manually calculated one customer’s bill outside the billing
system. Specifically, we noted:




12
     This includes a forklift, a fuel dispensing system, and several trailers.
Audit 2009-12510                                                                    Page 10
Office of the Inspector General                                                                       Audit Report


     One Manufacturing Service Rate – Schedule MSB13 customer’s demand was
      incorrectly calculated and billed since November 2007. This customer has
      multiple meters with multiple demand readings each month. TVA previously
      read this customer’s meters and provided 30-minute interval demand data for
      each meter during the month. The interval data was provided electronically to
      Scottsboro and uploaded into the billing system that combined the data for
      each interval to determine the simultaneous peak demand across all of the
      customer’s meters.
      When this customer revised its retail contract in November 2007 to remove
      optional energy products, TVA stopped reading the meter and providing the
      interval data to Scottsboro. After November 2007, Scottsboro did not obtain
      interval data from the meters and read only the peak 30-minute interval
      demand from each meter that could be for different times during the month.
      As a result, Scottsboro had nonsimultaneous peak demand readings. The
      nonsimultaneous peak demand readings were then manually combined in the
      billing system by Scottsboro personnel to obtain one demand reading for the
      customer. While the single point of delivery determined in this customer’s
      retail contract legally allows the demand readings to be combined, technically,
      the appropriate method to determine the simultaneous peak demand is to
      combine the demand readings for all meters in each 30-minute interval, and
      then select the 30-minute interval with the highest total. The manner in which
      Scottsboro is calculating demand using nonsimultaneous peaks could result
      in a higher bill for the customer and a higher wholesale bill for the distributor.
      Without interval demand data from each of the customer’s meters, we could
      not estimate the monetary effect of this issue on either TVA or the end-use
      customer.
     The same MSB customer’s reactive power charges have also been
      incorrectly calculated and billed each month since November 2007. Reactive
      power charges for MSB customers are separate charges on the customer’s
      bill based on reactive power readings from the meter. TVA previously read
      this customer’s meters and provided these readings from each meter. The
      readings were provided electronically to Scottsboro and uploaded into the
      billing system that determined any applicable reactive power charges.
      When this customer revised their retail contract in November 2007 to remove
      optional energy products, TVA no longer read the meter and provided the
      data to Scottsboro. Scottsboro obtained the readings from the customer’s
      meters but did not apply reactive power charges correctly. The customer’s
      reactive power charges were calculated using the GSA schedule rules
      instead of the MSB schedule. Under the GSA schedule, the reactive power
      charges are included in the base demand charge and applied to the customer
      by replacing the metered demand reading with 85 percent of kVA when

13
     Under the Manufacturing Service Rate – Schedule MSB customers are classified as MSB where (a) a
     customer’s currently effective contract demand is greater than 5,000 kW but not more than 15,000 kW,
     and (b) the major use of electricity is for activities conducted at the delivery point serving that customer
     which are classified with a 2-digit Standard Industrial Classification Code between 20 and 39, inclusive.
Audit 2009-12510                                                                                          Page 11
Office of the Inspector General                                                           Audit Report


      85 percent of kVA exceeds the metered demand. Since reactive power data
      was not available, we could not estimate the monetary effect of this issue on
      the customer. There would be no monetary effect on TVA since reactive
      power charges at the customer location are not included on Schedule 1.
     One customer’s monthly bill was manually calculated outside of the billing
      system. This customer was provided service under the SC&G schedule. The
      retail rates for this customer classification were not included in the billing
      system; therefore, the customer’s monthly bill was manually calculated
      outside of the billing system by Scottsboro personnel. The calculated amount
      was then manually entered into the billing system. Manual calculations
      (1) increase the risk of a billing error that would affect the customer and
      Schedule 1 to TVA and (2) are not included in the billing controls tested in the
      Statement on Auditing Standard (SAS) 70 report.

Customer Contract Issues
We noted four issues related to customer contracts at Scottsboro. Customer
contracts did not (1) easily identify the applicable customer account or location,
(2) include certification for manufacturing customers, (3) clearly identify the
applicable retail customer classification, and (4) contain the same contract
demand entered into the billing system. Specifically, we found:

     Customer contracts did not clearly identify the customer’s account or location
      that was applicable to the contract. Some customers had multiple contracts
      for multiple meters or locations that were not easily tied to the billing system
      data.
     Certification was not included as part of the contract file documentation for
      customers under manufacturing service schedules. The power contract
      between TVA and Scottsboro requires the customer certify to Scottsboro on a
      TVA-approved form that it meets all the requirements of the manufacturing
      classification.  
     One customer contract did not clearly identify the applicable retail rate
      classification. Based on the contract demand listed in the contract and lack of
      manufacturing certification described above, the customer could have been
      classified under the General Power Rate – Schedule GSB;14 however, the
      contract states the customer will be provided service under the GSA
      schedule. Further, the customer was billed under the MSB schedule rather
      than the GSB or GSA schedule.
     One customer’s contract demand did not match the contract demand entered
      into the billing system. The contract demand amount in the billing system
      was used to calculate both the monthly demand charge and the minimum bill
      amount.



14
     Under the General Power Rate – Schedule GSB customers are classified as GSB where a customer’s
     currently effective contract demand is greater than 5,000 kW but not more than 15,000 kW.
Audit 2009-12510                                                                              Page 12
Office of the Inspector General                                            Audit Report


TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA’s oversight of this distributor. We noted
one new oversight opportunity in addition to two issues noted for this distributor
which were also reported in previous OIG distributor reports. Specifically, we
noted TVA has not:

    Provided guidance to the four distributors who have been granted authority
     to set their own retail rates regarding necessary controls to ensure retail
     rates are properly designed, approved, and implemented to prevent
     discrimination or the perception of discrimination in providing power to
     customers. In TVA’s regulatory role, TVA is charged with ensuring there is
     no discrimination in the sale and distribution of electric power. As discussed
     earlier, Scottsboro did not have documented retail rate schedules with
     qualifying criteria approved by the Scottsboro Board that were posted for the
     public.
     The potential issues related to the nondiscrimination requirement noted
     above (the special rate class for one customer and decision not to pass
     through the full FCA to that customer) illustrate the challenges to TVA with
     respect to its requirement to ensure nondiscrimination where it has ceded
     authority to regulate resale rates. This exposes TVA to significant
     reputational risk. The OIG will address this issue separately after additional
     reviews are undertaken.
    Provided definitive guidance for distributors on what constitutes prudent
     expenditures.
    Performed a current joint cost study.

In response to the previous reports, TVA agreed to take corrective actions on the
prudent expenditures and joint cost study issues. Full discussion of these issues
and TVA’s planned actions can be found in prior OIG distributor reports on our
Web site, www.oig.tva.gov.




Audit 2009-12510                                                                 Page 13
Office of the Inspector General                                           Audit Report


RECOMMENDATIONS
We recommend the Group President, S&ER, work with Scottsboro to improve
compliance with the contract and/or strengthen internal controls. Specifically,
Scottsboro should:

1.   In accordance with the TVA Guidance on Installing Demand Meters issued in
     February 2010, review the customers’ usage greater than 25,000 kWh and
     install demand meters, if needed.

     Scottsboro’s Response – Scottsboro stated two of the three customers
     with usage greater than 25,000 kWh were reviewed by the engineering
     department and determined it was not cost effective to install demand meters
     at these locations. Scottsboro stated the third customer identified in the
     report with demand consistently over 25,000 kWh is on a specialized retail
     rate schedule that does not include a demand component. See Appendix B
     for Scottsboro’s complete response.

     TVA Management’s Comments – TVA agreed with our recommendation
     and stated the distributor should review customer usage greater than
     25,000 kWh and install demand meters, if needed. TVA also stated while
     the distributor has retail rate setting authority, the wholesale rate currently
     requires Scottsboro to track and pay for customers whose demand exceeds
     50 kW. TVA management will discuss with Scottsboro how to implement
     TVA recommendations in this area. No target completion date for this action
     was provided. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG maintains that Scottsboro should install
     demand meters for customers who meet the criteria outlined in the TVA
     Guidance on Installing Demand Meters in order to comply with the wholesale
     power contract that requires wholesale demand to be reported to TVA
     monthly on the Schedule 1. In regard to the customer on a specialized retail
     rate schedule, the OIG agrees the retail rate does not include a demand
     component; however, the wholesale rate classification for this customer
     requires demand to be reported and paid to TVA.

2.   Install meters that measure kVA at all customer locations billed for demand.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.


Audit 2009-12510                                                              Page 14
Office of the Inspector General                                              Audit Report


     Auditor’s Response – The OIG maintains that meters which measure
     reactive power installed at customer locations billed for demand are good
     utility practice.

3.   Consider developing retail rate schedules for other specialized industries in
     the Scottsboro area or documenting why retail rate schedules for other
     specialized industries are not developed.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.

     TVA Management’s Comments – TVA management agreed specialized
     rates can raise issues of potential discrimination, and while TVA does not
     have resale rate authority over Scottsboro, TVA does have responsibility to
     regulate potential discrimination issues. TVA management stated they will
     further investigate this matter. No target completion date for this action was
     provided. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG maintains that developing additional
     specialized retail rate schedules or documenting why additional specialized
     retail rate schedules are not developed prevents any potential discrimination
     issues that would result in noncompliance with the wholesale power contract.

4.   Publicly post all effective retail rate classifications and corresponding rate
     schedules, and update the public posting whenever approved rate
     classification and/or rate schedule changes occur.

     Scottsboro’s Response – Scottsboro stated all retail rate schedules are
     posted on the Web site and are updated anytime the retail rate schedules
     change. See Appendix B for Scottsboro’s complete response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – As of July 14, 2010, the Scottsboro Web site did not
     list all effective retail rate classifications and the corresponding schedules.
     The specialized SC&G classification is not included on the Web site.
     Additionally, the Web site did not include corresponding rate schedules for
     the retail rate classifications listed on the Web site. The OIG maintains that
     all current retail rate classifications and corresponding schedules should be
     publicly posted.




Audit 2009-12510                                                                Page 15
Office of the Inspector General                                           Audit Report


5.   Pass all FCA and wholesale rate increases/decreases to all customers in all
     rate classifications.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG maintains that passing the FCA and
     wholesale rate increases/decreases to all customers in all rate classifications
     prevents potential discrimination issues that would result in noncompliance
     with the wholesale power contract. We do not agree that giving up the
     authority to regulate Scottsboro’s resale rates would preclude TVA from
     working with Scottsboro to implement this recommendation. TVA still has a
     responsibility to ensure nondiscrimination in the sale and distribution of
     power.

6.   Execute loan documents between the electric department and
     telecommunications department for loaned amounts that include interest
     rates to be paid by the telecommunications department, terms for payback,
     recourse available to the electric department if telecommunications is unable
     to make payment on a timely basis, and any other protections available to
     the electric rate payer.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated an internal loan document will be created between the electric
     department and telecommunications department and will include loan terms
     and conditions, recourse provisions, and interest. No target completion date
     for this action was provided. See Appendix B for Scottsboro’s complete
     response.

     TVA Management’s Comments – TVA management stated TVA is
     investigating whether the loaned amounts were an appropriate use of electric
     system reserve funds. TVA further stated correction of loaned amounts will
     be pursued if the loaned amounts are determined to be an inappropriate
     investment of electric system funds. No target completion date was
     provided, as the action by TVA will be based on the results of the
     investigation. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with the planned actions.




Audit 2009-12510                                                             Page 16
Office of the Inspector General                                          Audit Report


7.   Create an independent general ledger and independent general ledger
     accounts for the telecommunications department.

     Scottsboro’s Response – Scottsboro disagreed with the recommendation
     and stated it felt complete separation of the electric department's and
     telecommunications department's general ledgers would require the two
     department services to be billed separately and separate payroll and
     payables systems to be maintained. Scottsboro also stated this separation
     would increase operating costs and, therefore, increase power costs for end-
     use customers as well as create customer inconvenience with two separate
     bills. See Appendix B for Scottsboro’s complete response.

     TVA Management’s Comments – TVA management agreed with the
     recommendation to the extent necessary for Scottsboro’s electric department
     to comply with Section 1 of the Terms and Conditions of the power contract.
     TVA will discuss the issue with Scottsboro to better understand how the
     books are maintained and if any changes are required. Target completion
     date for this action is May 2011. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG maintains that independent general ledgers
     and independent general ledger accounts should be created for the
     telecommunications department to ensure compliance with the power
     contract. OIG believes maintaining separate ledgers and accounts would not
     require separate billing or payroll systems.

8.   Allocate all operation and maintenance costs between the electric
     department and telecommunications department according to the
     percentages documented in the joint cost study.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.

     TVA Management’s Comments – TVA management agreed with the
     recommendation and plans to pursue the execution of an appropriate joint
     use agreement. Target completion date for this action is May 2011. See
     Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with TVA’s planned actions.

9.   Allocate all large expenses between the electric department and
     telecommunications department according to percentage of use by each
     department.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.


Audit 2009-12510                                                            Page 17
Office of the Inspector General                                            Audit Report


     TVA Management’s Comments – TVA management agreed with the
     recommendation and plans to pursue the execution of an appropriate joint
     use agreement. Target completion date for this action is May 2011. See
     Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with TVA’s planned actions.

10. Implement a process to ensure all customers with contracts have the
    appropriate contract demand entered into the billing system and the contract
    demand in the system agrees with the customer’s contract.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated it is striving to verify the contract demand in the billing system agrees
     with the contract demand on the customer contract. No target completion
     date for this action was provided. See Appendix B for Scottsboro’s complete
     response.

     TVA Management’s Comments – TVA management agreed with the
     recommendation and will discuss with Scottsboro how to implement TVA
     recommendations in this area. No target completion date for this action was
     provided. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with the planned actions.

11. Ensure only retail rate increases/decreases approved by the Board are
    implemented.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated FCA and any other rate changes will be approved by the Board and
     documented in the minutes of the Board meetings. No target completion
     date for this action was provided. See Appendix B for Scottsboro’s complete
     response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG concurs with the planned actions.

12. Require Board approval of all retail rate increases/decreases for all rate
    classifications.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated FCA and any other rate changes will be approved by the Board and
     documented in the minutes of the Board meetings. No target completion

Audit 2009-12510                                                              Page 18
Office of the Inspector General                                           Audit Report


     date for this action was provided. See Appendix B for Scottsboro’s complete
     response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG concurs with the planned actions.

13. Document retail rate schedules including which customer the rate
    classification is available to, the energy and demand thresholds, retail rates
    and charges, how demand is determined, minimum bill requirements, and
    any other special charges that may apply (facilities charge, reactive power,
    etc.), and obtain the Scottsboro Board approval.

     Scottsboro’s Response – Scottsboro stated retail rate schedules are
     available to the public on the Web site. See Appendix B for Scottsboro’s
     complete response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – As of July 14, 2010, retail rate schedules including
     the information described in the above recommendation were not included
     on the Scottsboro Web site. The only retail rate information included on the
     Web site as of July 14, 2010, were the retail rate classifications, thresholds
     for qualification for the classifications, and the retail rate charged to the
     customer. Additionally, the Web site does not include the specialized SC&G
     retail rate classification or the corresponding rate schedule. The OIG
     maintains that documenting retail rate schedules to include the information
     described in the above recommendation is good utility practice.

14. Bill reactive power charges for MSB customers separate from demand
    charges.

     Scottsboro’s Response – Scottsboro disagreed with the recommendation
     and stated reactive power billing practices for an MSB customer were based
     on previous TVA reactive power billing practices prior to Scottsboro
     assuming the billing responsibility. See Appendix B for Scottsboro’s
     complete response.



Audit 2009-12510                                                             Page 19
Office of the Inspector General                                             Audit Report


     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The current reactive power billing practice for MSB
     customers at Scottsboro does not follow previous or current standard TVA
     billing practice for billing reactive power to MSB customers. The OIG
     maintains that reactive power charges for MSB customers should be billed
     separate from demand charges.

15. Bill demand for customers with multiple meters separately when interval data
    is not available to determine the simultaneous peak demand.

     Scottsboro’s Response – Scottsboro disagreed with the recommendation
     and asked for TVA to provide industry documentation that requires a
     distributor to bill a customer based on the simultaneous demand of multiple
     meters at the same location. See Appendix B for Scottsboro’s complete
     response.

     TVA Management’s Comments – TVA management agreed with the
     recommendation and stated if the distributor has more than one meter and a
     single point of delivery, the simultaneous peak demand at the delivery point
     should be determined and used to bill the customer. TVA management will
     discuss this issue with Scottsboro. Target completion date for this action is
     May 2011. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with TVA’s planned action. The
     OIG maintains that Scottsboro should bill demand for customers with
     multiple meters separately when interval data is not available to determine
     the simultaneous peak demand.

16. Include all rates for all customer classifications in the billing system to create
    customer bills or develop and implement a review and approval process for
    customer bills manually calculated outside the billing system.

     Scottsboro’s Response – Scottsboro disagreed with the recommendation
     and stated the billing system cannot perform the calculation for this
     customer, and the bill must be created manually outside the system.
     Scottsboro also stated the Statement on Auditing Standard 70 review did not
     find any issues with billing prepared manually outside the billing system. See
     Appendix B for Scottsboro’s complete response.




Audit 2009-12510                                                                Page 20
Office of the Inspector General                                           Audit Report


     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG maintains that a review and approval
     process should be implemented for customer bills manually calculated
     outside the billing system. Additionally, the most recent SAS 70 review at
     the time of the OIG audit dated August 25, 2006, did not include any
     evidence customer bills manually calculated outside of the billing system
     were included as part of the SAS 70 compliance testing.

17. Include additional information in customer contracts to easily identify
    contracts for customers with multiple meters or locations.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated work is being continued in the customer contracts area to ensure
     customer account or location is easily identifiable on customer contracts. No
     target completion date for this action was provided. See Appendix B for
     Scottsboro’s complete response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG concurs with the planned actions.

18. Require certification from customers under a manufacturing service schedule
    that they meet the requirements of the schedule.

     Scottsboro’s Response – Scottsboro’s response did not address this
     recommendation.

     TVA Management’s Comments – TVA management agreed with the
     recommendation and stated the power contract requires the distributor to
     maintain the required certifications in order to sell power under the
     manufacturing classifications. TVA management will discuss this issue with
     Scottsboro. Target completion date for this action is May 2011. See
     Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with TVA’s planned actions.




Audit 2009-12510                                                              Page 21
Office of the Inspector General                                                  Audit Report


19. Revise customer contracts with conflicting language to accurately reflect the
    applicable retail rate schedule.

     Scottsboro’s Response – Scottsboro agreed with the recommendation and
     stated it is striving to clearly identify the applicable retail rate classification in
     customer contracts. No target completion date for this action was provided.
     See Appendix B for Scottsboro’s complete response.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG concurs with the planned actions.

The Group President, S&ER, should:

20. Develop and provide guidance on controls over designing, approving, and
    implementing retail rates for distributors who have authority to set their own
    retail rates.

     TVA Management’s Comments – TVA management did not address this
     recommendation and stated TVA could not implement recommendations
     related to Scottsboro’s resale rates since TVA agreed to give up the authority
     to regulate Scottsboro’s resale rates. See Appendix C for TVA’s complete
     response.

     Auditor’s Response – The OIG maintains that TVA, as a part of its
     responsibility to ensure nondiscrimination, should develop and provide
     guidance on controls over designing, approving, and implementing retail
     rates for distributors who have authority to set their own retail rates.

21. Review and recover any amounts due to TVA for the SC&G schedule
    customer without a demand meter.

     TVA Management’s Comments – TVA management agreed with this
     recommendation and will evaluate recovery mechanisms for the amounts
     due for the SC&G customer’s demand charges. TVA will work with
     Scottsboro to recover the demand charges. The target completion date for
     this action is May 2011. See Appendix C for TVA’s complete response.

     Auditor’s Response – The OIG concurs with the planned actions.




Audit 2009-12510                                                                    Page 22
                                                                       APPENDIX A
                                                                        Page 1 of 1

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Scottsboro including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained Scottsboro electronic billing information from CSA for the audit
    period. The information was not complete because CSA does not maintain
    historical rate information for inactive customers. We used the information
    available to generate reports of exceptions related to classification and
    metering and conducted further review of documentation or discussed with
    management.
   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
   Determined through inquiry and review of documentation whether Scottsboro
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted November 2009 through March 2010. This
performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                                                      APPENDIX B
                                                       Page 1 of 4




                                         {REDACTED}


                            {REDACTED}
             {REDACTED}




                          {REDACTED}




{REDACTED}
             APPENDIX B
              Page 2 of 4




{REDACTED}
APPENDIX B
 Page 3 of 4
                                                               APPENDIX B
                                                                Page 4 of 4




Note: Scottsboro attached copies of the wholesale power agreement with TVA.
We did not include these agreements in this report.
APPENDIX C
 Page 1 of 4
APPENDIX C
 Page 2 of 4
APPENDIX C
 Page 3 of 4
APPENDIX C
 Page 4 of 4
